APPENDIX A
Opinion of the Eleventh Circuit Court of Appeals affirming the
District Court’s denial of petitioner’s Rule 60(b) Motion

\

vCase: 19-13363

Date Filed: 06/11/2020

Page: 1 of 7

[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-13363
Non-Argument Calendar
D.C. Docket No. l:13-cv-20187-CMA
NELSON VIERA,
Petitioner-Appellant,
versus

FLORIDA DEPARTMENT OF CORRECTIONS,
Respondent-Appellee.
Appeal from the United States District Court
for the Southern District of Florida
(June 11, 2020)
Before MARTIN, ROSENBAUM, and ANDERSON, Circuit Judges.
PER CURIAM:
Nelson Viera, a Florida prisoner proceeding pro se, appeals the dismissal of
his motion to set aside the order denying his 28 U.S.C. § 2254 petition. Viera
argues that the district court erred in dismissing his motion for lack of jurisdiction

I
Case: 19-13363

Date Filed: 06/11/2020

Page: 2 of 7

and without considering the merits of his allegations of fraud on the court. He also
argues the district court erred in treating his motion as an impermissible second Or
successive § 2254 petition. After careful review, we affirm.

On August 7,2017, a Florida jury found Viera guilty of trafficking heroin.
He was initially sentenced to 40-years imprisonment but appealed and, on remand,
was resentenced to 2 5-years imprisonment. Viera sought post-Conviction relief
pursuant to Florida Rule of Criminal Procedure 8.850, which was denied. In
January 2013, he filed a petition for writ of habeas corpus pursuant to 28 U.S.C.
§ 2254 in the Southern District of Florida.
Viera’s § 2254 petition raised numerous grounds for relief. Among these, he
claimed that trial counsel was ineffective for failing to protect his constitutional
right to confront a confidential informant (“Cl”) named Jose Raul Gallardo, by not
deposing him or securing his presence at trial. In support of this claim, Viera
asserted that the state falsely claimed that Gallardo was unavailable to testify at
trial because he had been deported when, in fact, Gallardo had not been deported.
A magistrate judge recommended denying Viera’s § 2254 petition. As
relevant here, it recommended denying Viera’s ineffective assistance claim based
on counsel’s failure to call Gallardo. It reasoned that trial counsel adequately
investigated the facts and Viera failed to produce competent evidence that the Cl
2

Case: 19-13363

Date Filed: 06/11/2020

Page: 3 of 7

was actually available to testify at trial or would have provided exculpatory
testimony were he available. The district court overruled Viera’s objections,
adopted the magistrate judge’s recommendation, and denied the § 2254 petition. It
held that trial counsel properly investigated whether the Cl was available to testify
and that Viera failed to establish “any tangible, prejudicial effect counsel’s alleged
failure [to call the Cl as a witness] had on Viera’s, trial.” Viera’s motion for a
certificate of appealability was denied. Viera v. Florida Dep’t of Corr., Case No.
13-15850 (11th Cir. May 20,2014), ECF No. 6.
In April 2019, Viera sought leave to file a second or successive § 2254
petition based on newly discovered evidence. A panel of this Court denied his
motion. In re: Nelson Viera. Case No. 19-11295 (11th Cir. May 6, 2019), ECF No.
2. The panel held that Viera had not satisfied the requirements of § 2254(b)
because he failed to show why he could not have previously discovered the
purported evidence through the exercise of due diligence either during his criminal
proceedings or before filing his initial § 2254 petition. Id. at 4. The panel also
held that Viera failed to make a prima facie showing that the Cl’s testimony would
have demonstrated his actual innocence. Id. at 4-5.
In July 2019, Viera filed a motion, pursuant to Federal Rule of Civil
Procedure 60(b) and (d), for the district court to set aside its December 2, 2013
order and final judgment denying his § 2254 petition. Raising largely the same
3

Case: 19-13363

Date Filed: 06/11/2020

Page: 4 of 7

arguments as his motion for leave to file a second or successive § 2254 petition,
Viera claimed he had discovered new information revealing that the Cl was never
in immigration custody or subject to deportation during his trial, as the state had
claimed. He argued as a result that he was entitled to relief under Rule 60 because
the state “knowingly committed ... fraud on the Federal habeas Court.”
The district court construed Viera’s Rule 60 motion as a second or
successive § 2254 petition and dismissed it fcir lScR'ofjurisdiction. This is Viera’s
appeal.

We review de novo a district court’s dismissal of a habeas petition for lack
of jurisdiction. Howard v. Warden. 776 F. 3d 772, 775 (11th Cir. 2015). We
review de novo whether a habeas petition is second or successive. Patterson v.
Sec’v, Fla. Den’t of Corn. 849F.3d 1321,1324 (11th Cir. 2017) (enbanc). We
liberally construe the pleadings of pro se litigants. Tannenbaum v. United States.
148 F.3d 1262, 1263 (11th Cir. 1998) (per curiam).

On appeal, Viera argues that his Rule 60 motion should not have been
treated as a second or successive § 2254 petition because it attacked a defect in the
integrity of the federal habeas proceedings. He claims the Florida Attorney
General’s office knew of the “fraudulent character of the [sjtate’s earlier
4

Case: 19-13363

Date Filed: 06/11/2020

Page: 5 of 7

proceedings” and yet intentionally deceived the district court. His arguments are
without merit. i
A prisoner may not file a second or successive § 2254 petition in the district
court without first obtaining authorization from a federal court of appeals. See 28
U.S.C. § 2244(b)(3)(A). District courts lack jurisdiction,to consider the merits of a
second or successive § 2254 petition filed without such authorization. Lambrix v.
Sec’v. DOC, 872 F.3d 1170, 1180 (11th Cir. 2017) (per curiam). Rule 60 motions
for relief from judgment may not be used to evade the bar on second or successive
§ 2254 petitions. Gilbert v. United States. 640 F.3d 1293, 1323 (11th Cir. 2011)
(en banc), abrogated on other grounds bv McCarthan v. Dir, of Goodwill Indus.Suncoast. Inc.. 851 F.3d 1076 (11th Cir. 2017) (en banc). A Rule 60 motion will
be construed as a second or successive habeas application when it raises a new
ground for relief or attacks the district court’s resolution of an earlier claim on the
merits. Gonzalez v. Crosby. 545 U.S. 524, 531-32, 125 S. Ct. 2641, 2647^18
(2005). There is a limited exception to this rule: a Rule 60 motion that attacks a
defect in the integrity of the federal habeas proceeding itself, such as a claim of

i

The State asks us to overrule Hubbard v. Campbell. 379 F.3d 1245 (11th Cir. 2004) (per
curiam), and hold that Viera was required to obtain a certificate of appealability before
proceeding with this appeal, pursuant to 28 U.S.C. § 2253(c). Under Hubbard, the dismissal of a
second or successive habeas petition for lack of subject matter jurisdiction does not constitute a
final order in a habeas proceeding for purposes of § 2253(c). 379 F.3d at 1247. However,
Hubbard is precedent that binds us unless and until it is overruled or undermined to the point of
abrogation by the Supreme Court or this Court sitting en banc. United States v. Archer. 531 F.3d
1347, 1352 (11th Cir. 2008).
/

5

Case: 19-13363

Date Filed: 06/11/2020

Page: 6 of 7

fraud on the federal habeas court, is permissible and will not be construed as a
second or successive habeas petition. Id. at 532 & n.5, 125 S. Ct. at 2648 & n.5.
Here, the district court was correct to construe Viera’s Rule 60 motion as an
impermissible second § 2254 petition. Viera claims the Florida Attorney General
perpetrated fraud oh the federal habeas court because it “knew beyond a doubt of.

\,

the fraudulent character” of the earlier state proceedings and yet “failed to bring
forward that fact.” The record shows that the substantive issues raised in Viera’s
Rule 60 motion are nearly identical to those raised in his 2013 petition and again in
his 2019 motion for leave to file a second or successive petition. The fact that the
state continued to advance its position that the Cl was unavailable during Viera’s
criminal trial does not give rise to an independent claim of fraud on the court.
Rather, this claim amounts to little more than a relabeling of Viera’s challenge to
the underlying state proceedings and is not sufficient to avoid the bar on
unauthorized second petitions. See United States v. Bueno-Sierra, 723 F. App’x
850, 855 (11th Cir. 2018) (per curiam) (unpublished). And because a panel of this
Court had denied Viera’s motion for leave to file a second or successive § 2254
petition, the district court was correct to dismiss the motion for lack of jurisdiction
as an impermissible second petition. Lambrix, 872 F.3d at 1180.
Even if the district court had considered Viera’s Rule 60 motion on the
merits, Viera failed to meet his burden of showing fraud on the court. Rule
6

Case: 19-13363

Date Filed: 06/11/2020

Page: 7 of 7

60(d)(3) provides relief only for “the most egregious misconduct, such as bribery
of a judge or members of a jury, or the fabrication of evidence by a party in which
an attorney is implicated.” Rozier v. Ford Motor Co., 573 F.2d 1332, 1338 (5th
Cir. 1978) (quotation marks omitted).2 At most, Viera’s motion claims the Florida
Attorney General failed to disclose to the federal habeas court evidence that the, Cl;
was not in federal immigration custody at the time of Viera’s trial. But
nondisclosure of pertinent facts “will not ordinarily rise to the level of fraud on the
court” and the record does not support the inference that the state’s federal habeas
counsel knowingly misrepresented or failed to disclose pertinent facts. See id.
Therefore, even if the district court had jurisdiction to consider Viera’s Rule 60
motion, it did not err in denying it. See Beeman v. United States. 871 F.3d 1215,
1221 (11th Cir. 2017) (holding that, regardless of reasoning given by the district
court, we may affirm on any ground supported by the record).
AFFIRMED.

2 In Bonner v. City of Prichard. 661 F.2d 1206, 1209 (11th Cir. 1981) (en banc), we
adopted as binding precedent all decisions of the former Fifth Circuit handed down prior to
October 1, 1981.
7

APPENDIX B
Opinion of the Southern District Court denying
Petitioner’s Rule 60(b) Motion

\ j*

Case: l:13-cv-20187-CMA

Document#: 40 Entered on FLSD Docket: 08/15/2019

Page 1 of 6

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 13-20187-CIV-ALTONAGA
NELSON VIERA,
Petitioner,
v.

FLORIDA DEPARTMENT OF
CORRECTIONS,
Respondent.

ORDER
THIS CAUSE came before the Court on Petitioner, Nelson Vera’s [sic] Motion to Set
Aside Order and Final Judgment (“Motion to Set Aside”) [ECF No. 32], filed July 17, 2019.
Relying on Federal Rule of Civil Procedure “60(b)(2)(3)(d)(3)” (id. 1), Petitioner asks the Court
to set aside a December 2, 2013 Order [ECF No. 25] dismissing Viera’s Petition Under 28 U.S.C.
§ 2254 for Writ of Habeas Corpus by a Person in State Custody. Respondent, Mark S. Inch, filed
his Response to Petitioner’s Rule 60(b) Motion for Relief from Final Judgment (“Response”) [ECF
No. 39] on August 2, 2019. Petitioner did not file a reply. The Court has carefully reviewed the
j

parties’ written submissions, the file, and applicable law. For the following reasons, the Motion
to Set Aside is dismissed for lack of jurisdiction.
Under Federal Rule of Civil Procedure 60(b), “where a petitioner attempts to use a motion
under Rule 60(b) as a successive habeas petition attacking his conviction, the claims that he raises
in the Rule 60(b) motion should be dismissed.” Saunders v. United States, 380 F. App’x 959, 963
(11th Cir. 2010) (citation omitted). A Rule 60(b) motion filed after a motion under section 2255
is successive if it “add[s] a new ground for relief or attack[s] the federal court’s previous rejection

Case: l:13-cv-20187-CMA

Document#: 40 Entered on FLSD Docket:.08/15/2019 Page 2 of 6
CASE NO. 13-20187-CIV-ALTONAGA

of a claim on the merits.” Gilbert v. United States, 640 F.3d 1293, 1323 (11th Cir. 2011)
(alterations added; citation omitted). In contrast, a Rule 60(b) motion is not successive, when it
“attacks, not the substance of the federal court’s resolution of a claim on the merits, but some
defect in the integrity of the federal habeas proceedings.” Gonzalez v. Crosby, 545 U.S. 524, 532
(2005) (footnote call number omitted).
:v

As noted,. Petitioner seeks to set aside the December 2, 2013 Order. In support, he states
he “is calling into question the very legitimacy of the judgment obtained by fraud upon the Court
that agents of the government perpetrated on the Federal Court which led to the denial of the habeas
petition.” (Mot. 3). Petitioner asserts the State committed fraud upon the state court because the
original prosecutor knew the confidential informant violated his probation during Petitioner’s case
and the Public Defender’s Officer represented both the C.I. and Petitioner; the C.I. was available
to testify during Petitioner’s trial and had not been deported, contrary to what the State claimed;
the State intentionally hid the C.I.’s whereabouts, which affected his defense; and his defense
attorney was part of the fraud as well. (See id. 6-8). Petitioner also states fraud was committed
on the undersigned because counsel for Respondent provided misleading information in her
written briefing by continuing the representation, like her state colleagues, that the C.I. had been
deported; and the C.I. claimed by Petitioner was not the same person that worked in this case. (See
id. 9). According to Petitioner, the state prosecutors knew the C.I.’s whereabouts, that he had a
prior trafficking record, he had not been deported, and had violated probation, yet chose not to
disclose that information to Petitioner. Consequently, Petitioner states Respondent’s counsel knew
about the state prosecutor’s misconduct and misrepresentations, yet did not disclose the
misconduct, resulting in frauci upon the Court. (See id. 11—13).

2

l}

f

Case: l:13-cv-20187-CMA

Document #: 40 Entered on FLSD Docket: 08/15/2019

Page 3 of 6

CASE NO. 13-20187-CIV-ALTONAGA
The Court assumes Petitioner relies on Rules 60(b)(2), allowing relief from a final
judgment on the basis of “newly discovered evidence that, with reasonable diligence, could not
have been discovered in time to move for a new trial under Rule 59(b); and 60(b)(3), allowing
relief for “fraud . . ., misrepresentation, or misconduct by an opposing party.” Fed. R. Civ. P.
60(b)(2) & (3) (alteration added). A motion made under Rules 60(b)(2) and (3) must be made no
more than a year after the entry of the judgment or order. See Fed. R. Civ. P. 60(c)(1). Clearly,
Petitioner’s Motion to Set Aside, to the extent it relies on Rules 60(b)(2) and (3), is not timely.
The Motion to Set Aside fares no better under Rule 60(b)(6). Rule 60(b)(6) “provides a
catch-all, authorizing a court to grant relief from a judgment for ‘any other reason that justifies
relief.’" Aldana v. Del Monte Fresli Produce N.A., Inc., 741 F.3d 1349, 1355 (11th Cir72014)
(quoting Fed. R. Civ. P. 60(b)(6)).

“Rule 60(b)(6) motions must demonstrate that the

circumstances are sufficiently extraordinary to warrant relief.” Id. (internal quotation marks and
•j

.

..

■

citations omitted). A petitioner “must demonstrate a justification so compelling that the [district]
court was required to vacate its order.*’ Icl. (Internal quotation marks and citations omitted;
alteration in original).
As noted by Respondent, the issues Petitioner raises in his Motion to Set Aside regarding
the complained-of conduct before the state court and in the federal habeas proceedings were the
subject of his prior application to the Eleventh Circuit Court of Appeals for permission to file a
successive section 2254 petition, which was denied. In its order, the Eleventh Circuit wrote:
In 2013, Viera filed his original § 2254 petition, which the district court denied with
prejudice. In his fifth claim in the original § 2254 petition, Viera argued that his
counsel was ineffective for failing to protect his constitutional right to confront the
confidential informant (“C.I.”), who he identified by name in his petition, and not
securing C.I.’s presence at trial. He asserted that, when he raised this issue in the
state post-conviction proceeding, a police officer said that the C.I. was not present
at trial due to his deportation. Viera asserted that the C.I. was “Cuban and not

3

Case: l:l3-cv-20187-CMA

Document #: 40 Entered on FLSD Docket: 08/15/2019

Page 6 of 6
«

CASE NO. 13-20187-CIV-ALTONAGA
ORDERED AND ADJUDGED that Petitioner, Nelson Vera’s [sic] Motion to Set Aside
Order and Final Judgment [ECF No. 32] is DISMISSED.
DONE AND ORDERED in Miami, Florida, this 15th day of August, 2019.

u
CECILIA M. ALTONAGA
UNITED STATES DISTRICT JUDGE
cc:

counsel of record
Petitioner, Nelson Viera

1

6

f"

'■
‘. i '

5 .

't

;

APPENDIX C
Order of the Eleventh Circuit Court of Appeals denying
Petitioner’s Petition for Rehearing on August 27, 2020

I
Case: 19-13363

Date Filed: 08/27/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-13363-AA

NELSON VIERA,
Petitioner - Appellant,
versus
FLORIDA DEPARTMENT OF CORRECTIONS,
Respondent - Appellee.

Appeal from the United States District Court
for the Southern District of Florida

ON PETITIONS FOR REHEARING AND PETITIONtSl FOR REHEARING EN BANC
BEFORE: MARTIN, ROSENBAUM, and ANDERSON, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Panel Rehearing is also denied. (FRAP 40)

ORD-46

